Audit Report




OIG-14-021
Audit of the Bureau of Engraving and Printing’s Fiscal Years
2013 and 2012 Financial Statements
January 27, 2014




Office of
Inspector General
Department of the Treasury
                                          DEPARTMENT OF THE TREASURY
                                                W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                  January 27, 2014


            MEMORANDUM FOR LARRY R. FELIX, DIRECTOR
                            BUREAU OF ENGRAVING AND PRINTING

            FROM:                       Michael Fitzgerald
                                        Director, Financial Audit

            SUBJECT:                    Audit of the Bureau of Engraving and Printing’s
                                        Fiscal Years 2013 and 2012 Financial Statements

            I am pleased to transmit the attached audited Bureau of Engraving and Printing
            (BEP) financial statements for fiscal years 2013 and 2012. Under a contract
            monitored by the Office of Inspector General, KPMG LLP (KPMG), an independent
            certified public accounting firm, performed an audit of the financial statements of
            BEP as of September 30, 2013 and 2012 and for the years then ended. The
            contract required that the audit be performed in accordance with generally
            accepted government auditing standards and applicable provisions of Office of
            Management and Budget Bulletin No. 14-02, Audit Requirements for Federal
            Financial Statements.

            The following reports, prepared by KPMG, are incorporated in the attachment:

                •       Independent Auditors’ Report;
                •       Independent Auditors’ Report on Internal Control Over Financial Reporting;
                        and
                •       Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG found:

                    •   that the financial statements were fairly presented, in all material respects,
                        in accordance with U.S. generally accepted accounting principles.
                    •   that management’s assertion that BEP maintained effective internal control
                        over financial reporting as of September 30, 2013 was fairly stated in all
                        material respects. However, KPMG identified a significant deficiency related
                        to internal control over monthly inventory account reconciliations.
                    •   no instances of reportable noncompliance with laws and regulations tested.

            KPMG also issued a management letter dated January 23, 2014 discussing certain
            matters involving internal control over financial reporting and its operation that
            were identified during the audit but were not required to be included in the
            auditors’ reports. This letter will be transmitted separately.
In connection with the contract, we reviewed KPMG’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, opinions on BEP’s financial statements or management’s assertion on the
effectiveness of internal control over financial reporting, or a conclusion on
compliance with laws and regulations. KPMG is responsible for the attached
auditors’ reports dated January 23, 2014 and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG did not comply,
in all material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Shiela Michel, Manager, Financial Audit at
(202) 927-5407.

Attachment
 THE DEPARTMENT OF THE TREASURY
BUREAU OF ENGRAVING AND PRINTING


           Financial Statements


 Years ended September 30, 2013 and 2012


(With Independent Auditors’ Reports Thereon)
                                         THE DEPARTMENT OF THE TREASURY
                                        BUREAU OF ENGRAVING AND PRINTING
                                                 FINANCIAL STATEMENTS
                                     FOR THE YEARS ENDED SEPTEMBER 30, 2013 AND 2012

                                                                   TABLE OF CONTENTS




INDEPENDENT AUDITORS’ REPORT ................................................................................................................. 1


FINANCIAL STATEMENTS ................................................................................................................................... 3

     Balance Sheets ....................................................................................................................................................... 3
     Statements of Operations and Cumulative Results of Operations ......................................................................... 4
     Statements of Cash Flows ...................................................................................................................................... 5
     Notes to the Financial Statements .......................................................................................................................... 6

MANAGEMENT’S REPORT
  ON INTERNAL CONTROL OVER FINANCIAL REPORTING ................................................................ 15

INDEPENDENT AUDITORS’ REPORT
   ON INTERNAL CONTROL OVER FINANCIAL REPORTING ................................................................ 16

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE
   AND OTHER MATTERS ................................................................................................................................ 19
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                        Independent Auditors’ Report


The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

Report on the Financial Statements

We have audited the accompanying financial statements of the Bureau of Engraving and Printing
(the Bureau), which comprise the balance sheets as of September 30, 2013 and 2012, and the related
statements of operations and cumulative results of operations, and cash flows for the years then ended, and
the related notes to the financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits. We
conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 14-02 require that we plan and perform the audits to obtain reasonable assurance about whether the
financial statements are free from material misstatement.

An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances. An audit also includes evaluating the appropriateness of accounting policies used and the
reasonableness of significant accounting estimates made by management, as well as evaluating the overall
presentation of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Bureau of Engraving and Printing as of September 30, 2013 and 2012, and the
results of its operations, and its cash flows for the years then ended in accordance with U.S. generally
accepted accounting principles.

Other Reporting Required by Government Auditing Standards

Report on Internal Control

We also have examined, in accordance with attestation standards established by the American Institute of
Certified Public Accountants, and the standards applicable to attestation engagements contained in
Government Auditing Standards issued by the Comptroller General of the United States, management’s
assertion that the Bureau maintained effective internal control over financial reporting as of September 30,
2013, based on the criteria established in Internal Control – Integrated Framework (1992) issued by the
Committee of Sponsoring Organizations of the Treadway Commission (COSO), and our report dated
January 23, 2014 expressed an unqualified opinion on management’s assertion that the Bureau maintained
effective internal control over financial reporting.

Report on Compliance

In accordance with Government Auditing Standards, we have also issued our report dated January 23,
2014, on our tests of the Bureau’s compliance with certain provisions of laws, regulations, contracts, and
other matters. The purpose of that report is to describe the scope of our testing of compliance and the
results of that testing, and not to provide an opinion on compliance. That report and the report on internal
control over financial reporting are an integral part of an audit performed in accordance with Government
Auditing Standards in considering the Bureau’s internal control over financial reporting and compliance.




January 23, 2014




                                                     2
                                  THE DEPARTMENT OF THE TREASURY
                                 BUREAU OF ENGRAVING AND PRINTING
                                                    Balance Sheets
                                           As of September 30, 2013 and 2012


                                                                                   2013                    2012
                                                                                          (In Thousands)
ASSETS
Current assets
  Cash (Note 3)                                                                $     88,218        $        117,993
  Accounts receivable (Note 10)                                                      63,276                  54,355
  Inventories, net (Note 4)                                                         171,504                 144,676
  Prepaid expenses                                                                    3,528                   4,743
Total current assets                                                                326,526                 321,767
Property and equipment, net (Note 5)                                                429,985                 416,350
Other assets, net (Note 6)                                                           27,048                  19,606
Total assets                                                                   $    783,559        $        757,723
LIABILITIES AND EQUITY
Liabilities
Current liabilities (Notes 7 and 8)
   Accounts payable                                                            $     16,200        $         18,980
   Accrued liabilities                                                               24,446                  34,668
   Advances                                                                          12,066                   5,011
Total current liabilities                                                            52,712                  58,659
Workers’ compensation liability (Note 8)                                             66,342                  63,039
Total liabilities                                                                   119,054                 121,698
Contingencies and commitments (Notes 12 and 13)
Equity
  Invested capital                                                                   32,435                  32,435
  Cumulative results of operations                                                  632,070                 603,590
Total equity                                                                        664,505                 636,025
            Total liabilities and equity                                       $    783,559        $        757,723


See accompanying notes to the financial statements.




                                                          3
                                THE DEPARTMENT OF THE TREASURY
                               BUREAU OF ENGRAVING AND PRINTING
                                        Statements of Operations and
                                       Cumulative Results of Operations
                               For the Years Ended September 30, 2013 and 2012


                                                                              2013                    2012
                                                                                     (In Thousands)
Revenue from sales (Note 10)                                              $      695,504      $        735,797
Cost of goods sold                                                               527,727               564,669
Gross margin                                                                     167,777               171,128
Operating costs:
  General and administrative expenses                                            120,890               108,326
  Research and development                                                        18,407                 9,127
                                                                                 139,297               117,453
Excess of revenues over expenses                                                  28,480                53,675
Cumulative results of operations at beginning of year                            603,590               549,915
Cumulative results of operations at end of year                           $      632,070      $        603,590


See accompanying notes to the financial statements.




                                                        4
                                THE DEPARTMENT OF THE TREASURY
                               BUREAU OF ENGRAVING AND PRINTING
                                           Statements of Cash Flows
                              For the Years Ended September 30, 2013 and 2012


                                                                            2013                    2012
                                                                                   (In Thousands)
Cash flows from operating activities
Excess of revenues over expenses                                        $        28,480     $         53,675
  Adjustments to reconcile excess of revenues over expenses
     to net cash provided by operating activities:
     Depreciation                                                                52,876               40,812
     (Gain) Loss from obsolescence                                                  502                 (175)
     Loss from inventory impairment                                               5,829                    -
     Loss from disposal of property and equipment                                     3                    -
  Changes in assets and liabilities
     Increase in accounts receivable                                             (8,921)             (15,919)
     (Increase) decrease in inventories                                         (32,657)               5,102
     (Increase) decrease in prepaid expenses                                      1,215               (1,045)
     Increase in other assets                                                    (7,944)                (163)
     Decrease in accounts payable                                                (1,343)             (14,703)
     Decrease in accrued liabilities                                            (10,222)              (1,281)
     Increase (decrease) in advances                                              7,055               (3,449)
     Increase in workers’ compensation liability                                  3,303                  616
        Net cash provided by operating activities                                38,176               63,470
Cash flows from investing activities
Purchases of property and equipment                                             (67,951)             (75,655)
        Net cash used in investing activities                                   (67,951)             (75,655)
Net decrease in cash                                                            (29,775)             (12,185)
Cash at beginning of year                                                       117,993              130,178
Cash at end of year                                                     $        88,218     $        117,993




See accompanying notes to the financial statements.




                                                      5
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                 September 30, 2013 and 2012


1. Reporting Entity

The Bureau of Engraving and Printing (Bureau), a component of the United States (U.S.)
Department of the Treasury, is the U.S. Government's security printer. The Bureau designs and
produces U.S. currency. The Bureau also advises and assists federal agencies in the design and
production of other U.S. Government documents requiring counterfeit deterrence or secure
production.

The Bureau operates under basic authorities conferred by the Act of July 11, 1862, (12 Stat. 532;
also, 31 U.S.C. 5114) and other laws and regulations. In accordance with the provisions of
Public Law 81-656, effective August 4, 1950, the operations of the Bureau are financed by
means of a revolving fund. This fund is reimbursed through billings to the Bureau's customers
for products delivered. Public Law 95-81 authorized the Bureau to include in its product prices
an amount to provide funding for the acquisition of capital equipment and future working
capital. Invested capital represents the historical value of the initial contribution made by the
Federal Government.

The financial statements represent the consolidation of two federal revolving funds. The
majority of all financial transactions are contained in the Bureau of Engraving and Printing
Revolving Fund, which finances Bureau operations. The other revolving fund, the Mutilated
Currency Revolving Fund, is used to redeem damaged paper currency received from the public.
All significant balances and transactions between the funds have been eliminated in
consolidation.

2. Summary of Significant Accounting Policies

Basis of Accounting

The Bureau has historically prepared its financial statements in conformity with U.S. generally
accepted accounting principles (GAAP), based on accounting standards issued by the Financial
Accounting Standards Board (FASB), the private-sector standards-setting body. Under such
standards, the Bureau prepares its financial statements using the full accrual basis of accounting
under which revenues are recognized when earned and expenses are recognized as incurred,
regardless of when cash is exchanged.

The Federal Accounting Standards Advisory Board (FASAB) has been designated by the
American Institute of Certified Public Accountants as the standards-setting body for financial
statements of Federal Government entities, with respect to the establishment of GAAP. FASAB
has indicated, however, that financial statements prepared based upon accounting standards
published by the FASB may also be regarded as in conformity with GAAP for those federal
agencies, such as the Bureau, that have issued financial statements based upon FASB accounting
standards in the past. Accordingly, consistent with historical reporting, the Bureau’s financial
statements are presented in accordance with accounting standards published by the FASB.




                                                6
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                Notes to the Financial Statements

                                  September 30, 2013 and 2012

Estimates

The preparation of financial statements in accordance with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and related
revenues and expenses. Those estimates most significant to the Bureau’s financial statements are
the actuarial estimates made by the Department of Labor (DOL) in arriving at the liabilities for
workers’ compensation, allowances for obsolescence, the useful lives of property and equipment,
the likelihood of losses associated with contingent liabilities, and certain accrued expenses at the
date of the financial statements. Such estimates and assumptions could change in the future as
more information becomes known, which could impact the amounts reported and disclosed
herein.

Cash

Cash represents the aggregate amount of the Bureau’s funds held on deposit with the U.S.
Treasury and are available to pay liabilities.

Inventories

Raw material and supply inventories are stated at standard cost, except for one advanced
counterfeit deterrent material, which is valued using the first-in-first-out (FIFO) method.
Finished goods inventories are stated at weighted average unit cost. All methods approximate
actual cost. Cost elements included in work-in-process and finished goods inventories are direct
materials, direct labor, manufacturing overhead and manufacturing support.

Any raw materials inventory determined to be obsolete will be immediately expensed resulting
in no allowance for inventory obsolescence for raw materials.

Property and Equipment

Property and equipment are recorded at cost. Major alterations and renovations are capitalized,
while maintenance and repair costs are charged to expense as incurred. The capitalization
threshold is $50,000. The Bureau capitalizes all cost associated with new construction and
building improvements.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury.
The Bureau is not charged for the use of the buildings or land, but is responsible for maintenance
and repair of all buildings and land improvements. The land and building shell for the Bureau's
Western Currency Facility were donated by the City of Fort Worth, Texas to the Department of
the Treasury (See Note 5).

Depreciation of property and equipment is calculated using the straight-line method over the
following estimated useful lives:

        Machinery and equipment                                            3 - 15 years
        Building improvements                                              3 - 40 years
        Information technology (IT) equipment and software                 3 - 5 years
        Office machines                                                    5 - 10 years
                                                 7
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                 Notes to the Financial Statements

                                  September 30, 2013 and 2012

        Furniture and fixtures                                             5 - 10 years
        Motor vehicles                                                     3 - 9 years

Other Assets

Other assets consist principally of machine repair parts and tools, which are used in the
production of the Bureau's products. Other assets are stated at standard cost, which
approximates actual cost, net of a reserve for obsolescence.

Employee Retirement Plans

Bureau employees participate in the contributory Civil Service Retirement System (CSRS) or
Federal Employees' Retirement System (FERS), to which the Bureau and employees make
contributions according to plan requirements. Consistent with reporting under multi-employer
pension plans, the Bureau does not report CSRS and FERS assets, accumulated plan benefits or
future liabilities, if any, applicable to its employees. This data is reported for plan participants
by the Office of Personnel Management (OPM).

Postretirement Benefits Other than Pensions

Postretirement benefits for former Bureau employees, specifically health care costs and life
insurance, are administered and paid by OPM through appropriations received from the U.S.
Government. The Bureau does not reimburse OPM for these payments. The Bureau's financial
statements do not include the cost of employee postretirement benefits paid by OPM, or the
actuarial liability for such benefits.

Workers’ Compensation Costs

The Federal Employee Compensation Act (FECA) provides income and medical cost protection
to covered federal civilian employees injured on the job, employees who have incurred a
work-related occupational disease and beneficiaries of employees whose death is attributable to
a job-related injury or occupational disease. Claims incurred for benefits for the Bureau's
employees under FECA are administered by DOL and are ultimately paid by the Bureau.

The FECA liability consists of two components. The first component, the accrued FECA
liability, is based on actual claims paid by DOL but not reimbursed by the Bureau. The Bureau
reimburses DOL for the amount of actual claims normally within one to two years after payment
is made by DOL. As a result, the Bureau recognizes a current and non-current liability for actual
claims paid by DOL, to be reimbursed by the Bureau.

The second component, the actuarial FECA liability, is the estimated liability for future benefit
payments. These future workers' compensation estimates were generated from an application of
actuarial procedures developed to estimate the liability for future FECA benefits. The actuarial
liability for future worker's compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approved compensation cases, plus a component
for incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
                                                 8
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                 Notes to the Financial Statements

                                   September 30, 2013 and 2012

payments related to that period. These annual benefit payments have been discounted to present
value using the Office of Management and Budget’s (OMB) economic assumptions for 10-year
Treasury notes and bonds, which resulted in discount rates as of September 30, 2013 and 2012,
of 2.73% and 2.29% in year one and 3.13% and 3.14% in subsequent years. The Department of
the Treasury allocated the overall liability to Treasury components based on past claims paid
information provided by DOL.

Annual, Sick, and Other Leave

Annual leave is accrued as a liability when earned and the accrual is reduced as leave is taken.
The balance in this accrued liability account reflects current pay rates.

Sick leave and other types of non-vested leave are expensed as the leave is taken.

Revenue Recognition

Revenue from sales to the Federal Reserve Board is recognized when finished goods
satisfactorily pass all Bureau quality control standards and are delivered to the on-site Federal
Reserve Depository vaults. Finished goods are released for shipment in accordance with
customer requirements. Revenue from the sale of uncut currency to the public is recognized at
the time the product is shipped. The Bureau does not record an allowance for returns because of
a historically negligible return rate.

Tax Status

The Bureau is a federal entity, and therefore is not subject to federal, state, or local income taxes.
Accordingly, no provision for income taxes is made in the accompanying financial statements.

Contingencies

Liabilities from loss contingencies arising from claims, assessments, litigation, fines and
penalties, and other sources, are recorded when it is probable that a liability has been incurred
and the amount of the assessment and/or remediation cost can be reasonably estimated. Loss
contingencies that do not meet these criteria, but are reasonably possible and estimable are not
accrued, but are disclosed in Note 12.

Fair Value Measurements

FASB Accounting Standard Codification (ASC) 820-10, Fair Value Measurements and
Disclosures, establishes a fair value hierarchy that prioritizes the inputs to valuation techniques
used to measure fair value. The Bureau’s financial instruments are comprised of cash, accounts
receivable, accounts payable, accrued liabilities, and advances as of September 30, 2013 and
2012, respectively. The carrying amounts of these financial instruments approximate fair value
because of the short-term nature of these instruments. The Bureau holds no financial
instruments that are required by ASC 825-10 to be valued at, reported, or disclosed at fair value
as of September 30, 2013 or 2012.


                                                  9
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                   September 30, 2013 and 2012


3. Cash

The year-end cash balances by fund are as follows as of September 30, 2013 and 2012:

                                                                      (In Thousands)
                                                                    2013          2012

 Bureau of Engraving and Printing
   Revolving Fund                                                  $ 76,750       $ 113,076
 Mutilated Currency Revolving Fund                                   11,468           4,917
 Total                                                             $ 88,218       $ 117,993


The balance in the mutilated currency revolving fund, consisting of processed claims for
mutilated currency submitted by the public for redemption, is offset by a liability to the public
which is included in advances on the balance sheets as of September 30, 2013 and 2012,
respectively (See Note 7).

4. Inventories, net

Inventories consist of the following as of September 30, 2013 and 2012:

                                                                       (In Thousands)
                                                                    2013           2012
 Raw material and supplies                                          $ 66,853       $ 75,418
 Work-in-process                                                      38,457         41,736
 Finished goods - currency                                            49,171          7,302
 Finished goods - uncut currency                                      17,023         20,220
 Total                                                             $ 171,504      $ 144,676

At September 30, 2013, the Bureau has on hand approximately 349 million Next Generation
$100 notes produced in FY 2013 that have not been accepted by the Federal Reserve Board due
to certain imperfections found on a small percentage of these notes. The Bureau is performing an
electronic inspection of the notes to identify those that do not meet the Federal Reserve Board’s
quality control standards. Bureau management’s estimate of the amount of spoilage in these
notes is approximately $5.8 million, or 11.9%, out of a total of approximately $49.0 million,
which is included in Cost of Goods Sold in the Statement of Operations and Cumulative Results
of Operations for the year ended September 30, 2013. Accordingly, management has written off
$5.8 million for inventory spoilage as of September 30, 2013. No such allowance was required
as of September 30, 2012.




                                               10
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                 September 30, 2013 and 2012

5. Property and Equipment, net

Property and equipment consist of the following as of September 30, 2013 and 2012:

                                                                       (In Thousands)
                                                                    2013           2012

 Machinery and equipment                                           $ 544,452     $ 494,201
 Building and land improvements                                      260,496       251,335
 IT equipment and software                                           148,163        94,603
 Office machines                                                       2,786         2,791
 Furniture and fixtures                                                1,448         1,277
 Donated assets - art work                                               125           125
 Motor vehicles                                                          212           212
 Leasehold improvements                                                  130            –
                                                                     957,812       844,544
 Less accumulated depreciation                                       604,789       553,642
                                                                     353,023       290,902
 Construction-in-progress                                             76,962       125,448
 Net property and equipment                                        $ 429,985     $ 416,350

Depreciation expense for the years ended September 30, 2013 and 2012 was $52.9 million and
$40.8 million, respectively.

The Bureau occupies and uses buildings and land owned by the Department of the Treasury.
The land and building shell for the Fort Worth, Texas facility were donated by the City of Fort
Worth to the Department of the Treasury in 1987, which holds the title thereto. At the time of
donation, the land had an appraised value of $1.5 million and the building shell cost was
$5.6 million. In accordance with the provisions of Public Law 81-656, Bureau financial
statements include only the costs to build out the facility.

6. Other Assets, net

Other assets consist principally of machine repair parts and tools. The allowance for
obsolescence for these parts and tools for the years ended September 30, 2013 and 2012 was
$7.2 million and $6.7 million, respectively.




                                              11
                          THE DEPARTMENT OF THE TREASURY
                         BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                 September 30, 2013 and 2012

7. Current Liabilities

All current liabilities are funded and consist of the following as of September 30, 2013 and
2012:
                                                                       (In Thousands)
                                                                    2013            2012

 Intragovernmental                                                  $  5,673         $  5,843
 With the public                                                      47,039           52,816
 Total                                                              $ 52,712         $ 58,659

 Accrued current liabilities consist of the following as of September 30, 2013 and 2012:

                                                                           (In Thousands)
                                                                        2013            2012

 Payroll                                                            $  6,826         $ 16,506
 Annual leave                                                         11,840           11,628
 Workers' compensation                                                 5,071            5,595
 Other                                                                   709              939
 Total                                                              $ 24,446         $ 34,668

 Advances consist of the following as of September 30, 2013 and 2012:

                                                                           (In Thousands)
                                                                        2013            2012

 Other Federal Agencies                                            $     550         $     58
 Mutilated Currency                                                   11,468            4,917
 Public sales                                                             48               36
 Total                                                              $ 12,066          $ 5,011


8. Workers’ Compensation Liability

Claims incurred and paid by DOL as of September 30, 2013 and 2012, but not yet reimbursed to
DOL by the Bureau, are approximately $11.6 million and $11.8 million, of which approximately
$5.1 million and $5.6 million represent a current liability, as of September 30, 2013 and 2012,
respectively. The Bureau will reimburse DOL for these claims in the next two years. The
Bureau's estimated non-current, actuarially derived future workers’ compensation liability was
approximately $59.8 million and $56.8 million as of September 30, 2013 and 2012, respectively.
The Bureau’s estimated, undiscounted, non-current, actuarially derived future workers’
compensation liability was approximately $85.8 million and $81.9 million as of September 30,
2013 and 2012, respectively.



                                               12
                        THE DEPARTMENT OF THE TREASURY
                       BUREAU OF ENGRAVING AND PRINTING

                               Notes to the Financial Statements

                                September 30, 2013 and 2012

9. Employee Retirement Plans and Postretirement Benefits Other than Pensions

Employer contributions to the retirement plans were $18.6 million and $18.3 million for 2013
and 2012, respectively. The CSRS employer contribution rate for fiscal years 2013 and 2012
was 7.0%. The FERS agency contribution rate was 11.9% for fiscal years 2013 and 2012,
respectively. The cost of providing the CSRS and FERS benefits is more than the amounts
contributed by the Bureau and the employees to OPM. The additional cost of providing benefits,
including the cost financed by OPM, which is not included in the Bureau's Statements of
Operations, totaled $26.9 million and $25.7 million in 2013 and 2012, respectively.

OPM paid costs totaling $9.7 million and $10.7 million for the Federal Employees Health
Benefits Program (FEHBP) and Federal Employees Group Life Insurance (FEGLI) programs in
2013 and 2012, respectively. These costs are not included in the Bureau's Statements of
Operations. The Bureau paid costs totaling $15.2 million and $14.6 million for the FEHBP and
FEGLI programs in 2013 and 2012, respectively.

10. Concentration of Revenue

The Bureau’s principal customers are other federal and quasi-federal governmental
organizations. During 2013 and 2012, the Bureau’s sales revenue from these organizations as
well as the outstanding amounts due from them as of September 30, 2013 and 2012, are reflected
in the following table:
                                        Revenue                    Accounts Receivable
                                     (In Thousands)                   (In Thousands)
                                 2013              2012             2013             2012
 Federal Reserve Board:
  Currency Production         $ 679,287         $ 723,436          $ 57,874        $ 52,954
  Mutilated Currency              3,029             3,277               773             804
 Other Federal Agencies           2,395             1,974               251              92
                                684,711            728,687           58,898           53,850

 Public sales                    10,793              6,809            3,784                1
 Other                                –                301              594              504
                                 10,793              7,110            4,378              505

 Total                        $ 695,504         $ 735,797          $ 63,276        $ 54,355

Revenues from other federal agencies are derived principally from the sale of security printing
products to U.S. Government agencies and related fees charged.

11. Principal Suppliers

The Bureau is dependent upon sole suppliers for distinctive currency paper and several advanced
counterfeit deterrent materials.
                                              13
                         THE DEPARTMENT OF THE TREASURY
                        BUREAU OF ENGRAVING AND PRINTING

                                 Notes to the Financial Statements

                                  September 30, 2013 and 2012


12. Commitments and Contingencies

The Bureau is a party in various administrative proceedings, legal actions, and claims brought
against the Federal Government by employees, contractors, and other parties. As of
September 30, 2013 and 2012, there are no contingencies for litigation involving the Bureau,
where the risk of loss is probable. Contingencies, where the risk of loss is reasonably possible,
are approximately $3.1 million and $3.4 million as of September 30, 2013 and 2012,
respectively. Since the risk of loss for these litigations is not probable, the Bureau did not record
any liability. Management believes that the ultimate resolution of these litigations will not have a
material impact on the reported financial position, results of operations, and cash flows.

In 2007, a judge ruled that the current U.S. currency design violates Section 504 of the
Rehabilitation Act. The Court awarded no monetary damages. However, the Bureau is required
to provide meaningful access to United States currency for blind and other visually impaired
persons as part of the next currency redesign. The cost of currency changes necessary to provide
meaningful access will be incorporated into future currency redesign costs. No costs related to
the Court ruling have been accrued in the accompanying financial statements as of
September 30, 2013 and 2012.

The Bureau does not carry commercial insurance on its physical assets because by law the
Federal Government is self-insured.

13. Operating Lease

Rental expense for the years ended September 30, 2013 and 2012 was $3.0 million and
$2.5 million, respectively.

Future minimum payments under the lease as of September 30, 2013, are (in thousands):

                       For the years ending September 30:            Amount
                       2014                                          $ 3,051
                       2015                                            3,064
                       2016                                            3,077
                       2017                                            3,090
                       2018                                            3,103
                       Thereafter                                     10,964
                       Total                                         $ 26,349

14. Subsequent Events

The Bureau has evaluated subsequent events through January 23, 2014, the date that the
financial statements were available to be issued. There were no material events that required
additional accruals or disclosures.




                                                 14
                          DEPARTMENT OF THE TREASURY
                            BUREAU OF ENGRAVING AND PRINTING
                                         WASHINGTON, D.C.         20228


                        Management's Report on Internal Control Over Financial Reporting


We as management of the Bureau of Engraving and Printing (Bureau) are responsible for establishing and
maintaining adequate internal control over financial reporting and for our assertion on the effectiveness of
internal control over financial reporting. The Bureau's internal control over financial reporting is
designed to provide reasonable assurance regarding the reliability of financial reporting and the
preparation of financial statements for external purposes in accordance with U.S. generally accepted
accounting principles.

The Bureau's internal control over financial reporting includes those policies and procedures that:
•   pertain to the maintenance of records that, in reasonable detail, accurately and fairly reflect our
    transactions and dispositions of the assets of the Bureau;
•   provide reasonable assurance that our transactions are recorded as necessary to permit preparation of
    our financial statements in accordance with U.S. generally accepted accounting principles, and that
    receipts and expenditures of the Bureau are being made in accordance with authorizations of
    management of the Bureau and those charged with governance; and

•   provide reasonable assurance regarding prevention, or timely detection and correction of unauthorized
    acquisition, use, or disposition of the Bureau's assets that could have a material effect on the financial
    statements.
Because of its inherent limitations, internal control over financial reporting may not prevent or detect
misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to the
risk that internal controls may become inadequate because of changes in conditions, or that the degree of
compliance with the policies or procedures may deteriorate.
We assessed the effectiveness of the Bureau's internal control over financial reporting as of September
30, 2013. In making this assessment, the Bureau used the criteria established in the Internal Control —
Integrated Framework(1992) issued by the Committee of Sponsoring Organizations of the Treadway
Commission (COSO).
Based on our assessment and those criteria, we conclude that the Bureau maintained effective internal
control over financial reporting as of September 30, 2013.
KPMG LLP, an independent public accounting firm, has issued their reports, included herein, on (1) our
financial statements; (2) our compliance with certain provisions of laws, regulations, and contracts and
other matters; and (3) our assertion on the effectiveness of internal control over financial reporting.




      Larry R. Felix                             Leonard R. Olijar                    Debra H. Richardson
       Director                                   Deputy Director                    Chief Financial Officer

      January 23, 2014
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




            Independent Auditors’ Report on Internal Control Over Financial Reporting


To the Inspector General, Department of the Treasury, and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have examined management’s assertion, included in the accompanying “Management’s Report on
Internal Control Over Financial Reporting,” that the Bureau of Engraving and Printing (Bureau)
maintained effective internal control over financial reporting as of September 30, 2013, based on the
criteria established in Internal Control – Integrated Framework (1992) issued by the Committee of
Sponsoring Organizations of the Treadway Commission (COSO). The Bureau’s management is
responsible for maintaining effective internal control over financial reporting, and for its assertion on the
effectiveness of internal control over financial reporting, included in the accompanying “Management’s
Report on Internal Control Over Financial Reporting.” Our responsibility is to express an opinion on
management’s assertion based on our examination.

We conducted our examination in accordance with attestation standards established by the American
Institute of Certified Public Accountants, and the standards applicable to attestation engagements contained
in Government Auditing Standards, issued by the Comptroller General of the United States. Those
standards require that we plan and perform the examination to obtain reasonable assurance about whether
effective internal control over financial reporting was maintained in all material respects. Our examination
included obtaining an understanding of internal control over financial reporting, assessing the risk that a
material weakness exists, and testing and evaluating the design and operating effectiveness of internal
control based on the assessed risk. Our examination also included performing such other procedures as we
considered necessary in the circumstances. We believe that our examination provides a reasonable basis for
our opinion.

An entity’s internal control over financial reporting is a process effected by those charged with governance,
management, and other personnel, designed to provide reasonable assurance regarding the preparation of
reliable financial statements in accordance with U.S. generally accepted accounting principles. An entity’s
internal control over financial reporting includes those policies and procedures that (1) pertain to the
maintenance of records that, in reasonable detail, accurately and fairly reflect the transactions and
dispositions of the assets of the entity; (2) provide reasonable assurance that transactions are recorded as
necessary to permit preparation of financial statements in accordance with U.S. generally accepted
accounting principles, and that receipts and expenditures of the entity are being made only in accordance
with authorizations of management and those charged with governance; and (3) provide reasonable
assurance regarding prevention, or timely detection and correction of unauthorized acquisition, use, or
disposition of the entity’s assets that could have a material effect on the financial statements.

Because of its inherent limitations, internal control over financial reporting may not prevent, or detect and
correct misstatements. Also, projections of any evaluation of effectiveness to future periods are subject to
the risk that controls may become inadequate because of changes in conditions, or that the degree of
compliance with the policies or procedures may deteriorate.



                                                                16
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
In our opinion, management’s assertion that the Bureau of Engraving and Printing maintained effective
internal control over financial reporting as of September 30, 2013 is fairly stated, in all material respects,
based on the criteria established in Internal Control – Integrated Framework (1992) issued by COSO.

In accordance with Government Auditing Standards, we are required to report findings of significant
deficiencies. A significant deficiency is a deficiency, or a combination of deficiencies, in internal control
that is less severe than a material weakness, yet important enough to merit attention by those charged with
governance. We consider the deficiency in the Bureau’s internal control described in Exhibit I of this
report to be a significant deficiency.

The Bureau’s response to the significant deficiency identified in our examination is included in Exhibit I.
We did not examine the Bureau’s response and, accordingly, we express no opinion on the response.

We also have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the balance sheets as of September 30,
2013 and 2012, and the related statements of operations and cumulative results of operations, and cash
flows, of the Bureau and our report dated January 23, 2014 expressed an unmodified opinion.

This report is intended solely for the information and use of the Bureau’s management, the Department of
the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




January 23, 2014




                                                     17
                                                                                                   Exhibit I
                                 Fiscal Year 2013 Significant Deficiency


Internal Controls Over Monthly Inventory Account Reconciliations Need Improvement

During our fiscal year 2013 audit, we noted errors made in the September 30, 2013 reconciliations of two
raw materials and two spare parts general ledger accounts, and the resolution of the differences noted in
those reconciliations which resulted in raw materials inventory being overstated by $3,083,425 and other
assets – spare parts being overstated by $1,463,655 as of September 30, 2013. The Bureau corrected the
errors in the fiscal year 2013 financial statements.

Office of Management and Budget Circular No. A-123, Management’s Responsibility for Internal Control,
states “As agencies develop and execute strategies for implementing or reengineering agency programs and
operations, they should design management structures that help ensure accountability for results. As part of
this process, agencies and individual Federal managers must take systematic and proactive measures to
develop and implement appropriate, cost-effective internal control.”

The reconciliations of the raw materials and spare parts general ledger accounts were incorrectly prepared
and inadequately reviewed. A misunderstanding of the sub-ledger reports utilized in the reconciliation led,
in part, to the incorrect preparation of the reconciliations. In addition, reconciling items were not tied to
valid source documentation and correctly substantiated.

We recommend that the Bureau ensure reconciliations are performed accurately, all reconciling items are
fully substantiated, sub-ledger reports are understood and utilized correctly, and a thorough supervisory
review is conducted.

Management Response:

Management concurs with the recommendations and will take the necessary steps to implement policies
and procedures to ensure a proper reconciliation of inventory and related supervisory review are performed
and that the appropriate reports are being used in performing the reconciliation.




                                                     18
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

We have audited in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the financial statements of the Bureau of
Engraving and Printing (the Bureau), which comprise the balance sheets as of September 30, 2013 and
2012, and the related statements of operations and cumulative results of operations, and cash flows for the
years then ended, and the related notes to the financial statements, and have issued our report thereon dated
January 23, 2014.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Bureau’s financial statements are free from
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
and contracts, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 14-02. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of
compliance disclosed no instances of noncompliance or other matters that are required to be reported
herein under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the results of that
testing, and not to provide an opinion on the Bureau’s compliance. This report is an integral part of an
audit performed in accordance with Government Auditing Standards in considering the Bureau’s
compliance. Accordingly, this communication is not suitable for any other purpose.




January 23, 2014




                                                                 19
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
